HHS/OIG, Audit - "Review of Medicaid Reimbursement of Graduate Medical
Education in Missouri," (A-07-04-03058)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Medicaid Reimbursement of Graduate Medical Education in Missouri,"
(A-07-04-03058)
August 30, 2007
Complete
Text of Report is available in PDF format (891 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the State agencys
claims for Medicaid reimbursement of graduate medical education (GME) payments
to Childrens Mercy Hospital (the hospital) complied with Federal law and the
approved State plan.
The State agencys claims for Medicaid reimbursement of GME payments to the
hospital did not fully comply with Federal law or the approved State plan.  Of
the $5,678,794 ($3,440,926 Federal share) claimed, $3,440,926 ($2,084,984
Federal share) was allowable, and the remaining $2,237,868 ($1,355,942 Federal
share) was not allowable.  Specifically, the State agency was not entitled to
claim certified public expenditures as the State share of GME costs.  In
addition, we were unable to determine what portion of the certified public
expenditures, which were intended for the care of indigent children, related to
the provision of GME.
We recommended that the State agency (1) refund to the Federal Government the
$1,355,942 in GME overpayments to the hospital during State fiscal years 1999
through 2001, (2) follow Federal requirements and the State plan when claiming
GME costs in the future, and (3) review claims for GME subsequent to our audit
period and refund any portion that did not comply with Federal requirements and
the State plan.  The State agency disagreed with the first recommendation but
agreed with the two remaining recommendations.